Uf/jmme

SAMANTHA RAJAPAKSE- Petitl^rfef^f
v.
CREDIT ACCEPTANCE CORPORATION, etal- Respondents

On Petition for Writ of Certiorari in the
Sixth Circuit Court of Appeals
No. 19-1192

FILED
JUN 2 2 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

Petition for Writ of Certiorari

Samantha Rajapakse
Plaintiff/ Pro se
3221 Westonia Drive
Chattanooga, TN 37412
Samantha.rajapakse@outlook.com
423-551-1854

1

Question Presented

Does the Sixth Circuit have the authority and jurisdiction to astray from the
Court of Appeals and the Supreme Court to affirm the District Court judgment
granting immunity to Credit Acceptance Corporation, a subprime auto lender
from the Fair Credit Reporting Act, Fair Billing Act, and the Magnuson- Moss
Act enacted by Congress and enhanced by the Comphensive Consumer Credit
Reporting Act of 2016?

2

Question Presented

Does the Sixth Circuit have the authority and jurisdiction to astray from the
Court of Appeals and the Supreme Court to affirm the District Court judgment
granting immunity to Credit Acceptance Corporation, a subprime auto lender
from the Fair Credit Reporting Act, Fair Billing Act, and the Magnuson- Moss
Act enacted by Congress and enhanced by the Comphensive Consumer Credit
Reporting Act of 2016?

2

Table of Contents
Petition for Writ of Certiorari

Page
Petition for Writ of Certiorari
I.

5
5

Opinion Below

II.

Jurisdiction

5-7

in.

Authority

8-9

IV.

Constitutional and Statutory

11-12

V.

Statement of Case

13

VI.

Reason for Grant

18

A. The Courts action of a Private repossession turned
The case into a federal action which violates
Rajapakse’s Fourth Amendment.................................
12-13
B. Rights of Pro se Rajapakse to defend her Property
Rights in the courts.......................................................
C.
Sixth Circuit opinion opens the door for
Discrimination to Minorities and violation of
the Fourth Amendment,............................................

i

19

20

D. The Sixth Circuit opinion ruled on an issue never
address in the District Court or Appellate Court in
affirming its decision.................................................................
20
E. Sixth Circuit enforced a Vehicle Service Warranties are Qusai
Contracts which cannot be enforced.
24-24

3

E. Sixth Circuit affirming the Distict Court of a private
repossession turned the case into a federal action
which violates Rajapakse 4th Amendment:

F. Sixth Circuit affirm the lower court discrediting § 1681
on
regulating Furnishes reporting information
Raiapakse’s Credit Report:

G. Sixth Circuit affirm the lower court
discrediting § 1681 regulating Furnishes reporting
information on Rsyapakse’s Credit Report:...........

H. Previous Opinions from the Appellate Courts
Affidavits and Evidence not supporting Credit
Acceptance Deceptive History behavior................

■28

28-29

I. The Sixth Circuit denied Petitioner right
to Summary Judgement against Credit Acceptance
for violations as a matter of law..................................... 29

29

CONCLUSION

Appendix A: Order from Sixth Circuit Court 2021
Appendix B: Order from the Sixth Circuit March 2019
Appendix C: District Court of Eastern Michigan
Appendix D: Petitioner’s Equifax Credit Report
Appendix E: Affidavit from Robert Williams, One Stop Auto Sales
Appendix F: Affidavits from Credit Acceptance Consumers of their account

4

Appendix G: Default letter from Credit Acceptance showing the
Original loan balance

n
Petition for Writ of Certiorari
The Sixth Circuit has affirmed the District Court of Eastern
Michigan grant Credit Acceptance Corporation, a private corporation, from
liability to Plaintiff for violation of the 15 U.S.C §1681 of the Fair Credit
Reporting Act. This case is a First Impression whether the court can declare
immunity to a creditor other than the government of United States of America
for a consumer seeking relief.

Opinion Below
The Sixth Circuit held the lower court decision Credit Acceptance was
immune from being sued in court for violation of the Magnuson-Moss Act,
intentionally violated the Fair Credit Report and Truth in Lending Act. The
court discredited the laws and regulation, and the agency of the Consumer
Financial

Protection

Bureau,

related

regulations

furnisher

accurate

information on a consumer’s credit and the right for a consumer to bring suit.
The lower court allowed Credit Acceptance to wrongful seize/ wrongful
5

repossess Rajapakse’s vehicle with just the contract and two inconsistent
payment histories and credit report to support the debt owed not validated.
The Sixth Circuit also affirmed Petitioner’s petition for failure to state a claim.

JURISDICTION
Case from Federal Court.
The Opinion of the United States Court of Appeal at Appendix A to
the pentition is unpublished.
The Opinion of the United States District Court at Appendix B to the
Petition unpublished.

March 05, 2021, case from the Court of Appeal was decided. Petition
March 19th, 2021, of the deadline

filed a timely Petition before

Overnight by United States Postal Service to the court but due to the
Covid-19 it was filed Marchl4,2021. March 29, 2021, Court of Appeals
for the Sixth Circuit denied an En banc hearing as untimely.

The jurisdiction of this court is invoked under 28 U.S.C.§ 1251 (1) for
Writ of Certiorari to be Granted.

Petitioner’s petitioning seeking review of Certiroary under Rule 10 (a)
the Sixth Circuit of Appeals has entered a decision in conflict with the
decision of all United States Court of Appeals on the sam important
6

i

!

matter; has a decided an omporatant federal question in a way that
conflicts with the decision of the United States Supreme Court of last
resort and has departed from the accepted and usual course of judicial
proceedings, has sanctioned such a departure by a lower court, as to call
for an excerise of this Court’s supervisory power.
Petitioner’s Petition on review of Certiorari is filed within the last
decision before the Sixth Ciruit Rule 13 within the ninety days.

7

AUTHORITY

Blum v. Yaretsky, 457 U.S 991, 1004
Bracy v. Gramley, 520 U.S. 899 117 S.Ct. 1793
Brown v. Matauszak, 415 F.Ed Appx. 608,618 (6th Cir.)
C.F Rowlett v. Auheuser-Busch, 832 F.2d 194 206
First National Bank of Arizona, v. Cities Serv. Co.
391 U.S. 253 88 S.Ct. 1575, 20 L.Ed 2d 569 (1968)
Fuentes v. Shevin, 407 U.S. 67

i

Garaux v. Pulley, 739 F.2d 437,439 (9th Cir.
Harlow v. Fitzgerald, 457 U.S. 800, 818
Hensley v. Gassman, 693 F. .3d 681, 687
Liberty Lobby v. Anderson,
477 U.S. 242 106 S.Ct. 2505, 91 L.Ed 2d 202
Matsushita Elec. Indus. Co v. Zenith Radio Corp.,
475 U.S. 574, 587 106 S. Ct. 1348, 89 L. Ed. .2d 538
Middaugh v. City of Three Rivers, No. 15-1140
Morgan v. Church’s Fried Chicken, 829 F. .2d 10Nixon v. Candon, 286 U.S. 73 52 S. Ct. 484 76 L. Ed 984
Pailko v. Connecticut,
302 U.S. 310, 325-326 [58 S. Ct. 149, 152, 82 L Ed. 288]
Soldal v. Cook County,
506 U.S. 56 62-63 113 S.Ct. 538 121 L.Ed. 2d 450 (1992)

8

Saucier v. Katz, 533 U.S. 194, 201
Streit v. Frieside Chrysler Plymonth, Inc. , 697 F. .2d. 193
U.S. v. Maze, 414, U.S. 395 94 S. Ct. 646 38 L. Ed. .2d 603
U.S. v. Place, 462 U.S. 696 101 103 S.Ct. 2637, 77 L.Ed 2d 110 (1983)
Wadlington v. Credit Acceptance Corp. 76 F.3d 103
No. 94-2143
Wilbank v. Sec. of Health and Human Services, 847 F. .2d 301, 303

Related Cases
Rajapakse v. Credit Acceptance Corporation 2:16-cv-13144
Rajapakse v. Equifax Information Services No. l:2020-cv-00080 TWT

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Bill of Rights Article III Sec. 2
The judicial Power shall extend to all cases, in law and equity, arising under
this Constitution, the laws of the United States, and treaties made, or which
shall be made, under their authority;—to all cases affecting ambassadors,
other public ministers and consuls;—to all cases of admiralty and maritime
jurisdiction;—to controversies to which the United States shall be a party;—
to controversies between two or more states;— between a state and citizens of
another State,—between citizens of different States,—between citizens of the

9

same state claiming lands under grants of different states, and between a
state, or the citizens thereof, and foreign states, citizens or subjects.

U.S. Consitution IV Fourth Amendment Fourth Amendment involving
government intusion in a private transaction between the parties and the
right of entitlement.
he right of the people to be secure in their persons, houses, papers, and effects,
against unreasonable searches and seizures, shall not be violated, and no
Warrants shall issue, but upon probable cause, supported by Oath or
affirmation, and particularly describing the place to be searched, and the
persons or things to be seized.
U.S. Consitution IVX Fourteenth Amendment
All persons born or naturalized in the United State and subject to the
jurisdiction thereof, are citizens of the United States and of the State wherein
they reside. No state shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor shall any state
deprive any peson of life, liberty, or property, without due proces of the law,
nor deny to any person within its jurisdiction the equial protection of the laws.
Other

STATUTORY
10

I

15 U.S.C§ 1601 Truth in Lending Act Z Regulation of auto loans
15 U.S.C §1601- §1692Fair Credit Reporting Act
15 U.S.C §1692i(a)(2) §1692k Fair Debt Collection Practice Act.
15 U.S.C §2300-§2301 Magnuson-Moss Act
18 U.S.C§ 1001

RULES
Federal Rule of Civil Procedure 56

DOCTRINE
Doctrine of Qualified Immunity
Due Process Clause

11

Introduction
A consumer s credit report has become a vital part of life which affects a
person’s employment, credit worthness, and even obtaining insurance.
Congress has enacted more forceful laws to protect credit reporting to empower
but provide relief when regulation for non-compliance not just for the credit
reporting agencies, but for the furnishers providing information to a
consumer’s lending.

Rod Griffin, Director of Consumer and Advocacy for

Experian gave an interview with CNBC said Americans are obsessed with
working on having a perfrect credit score. Griffin stated:

“There’s a lot tied up in a credit score. Sure, in theory it simply tells
companies how “creditworthy” a particular individual is — how
likely they are to pay their bills on time. And a good score, on the
higher end of a range typically between 300 and 850, can lead to
lower interest rates on loans and better credit card offerings. But for
consumers, it’s not always purely a financial tool: There’s an
emotional component to it, too, that can drive people to extreme
lengths to improve their scores.”

Even a small inaccuarate could affect a consumer’s credit score from fifteen to
twenty points causing denial of auto, housing, and even a higher interest rate
on purchases.

It is for this reason, when credit reporting agency and

furnishers fail to comply with the regulations set up by congress the judicial
system is designed to make a consumer whole and promote trust in the
consumer laws and with the courts.

12

Statement of the Case
Petitioner, Samantha D.Rajapakse in January 2014 purchased a 2004
Chevy Trailblazer from One Stop Auto Sales in Memphis, Shelby County,
Tennessee. The dealer stated there was an existing warranty on the vehicle
that covers bumper-to-bumper coverage and all Rajapakse had to do was go to
any dealership or repair shop after the deductable of $100.00 can have the
vehicle repaired. The amount of the warranty was included $1,300.00 without
the knowledge of Rajapakse and the retail price of $9,800.00. Payments were
$361.00 starting February 2014 for forty-eight months. No documentation
was provided prior to or after to verify the warranty associated with the
vehicle.

Months after purchasing the vehicle the check engine indication

came on the vechile and Rajapakse attempted take it to various repair shops
and dealerships to have the vehicle repaired and was denied. After serveral
contacts in an attempt from the One Stop Auto and Credit Acceptance to
provide proof of

service coverage Rajapakse demanded a refund of the

warranty on the vehicle and adjust the lending amount of the balance.

The

dispute in locating the warranty extended for two (2) years with Credit
Acceptance. June 2016 Credit Acceptance had no indication of where the
warranty could used but stated because they had told Rajapakse the warranty
existed she was not entitled to a full refund but instead a rebate or pro rate
for the remaining time left on the warranty. Rajapakse disagreeded and filed
a complaint in district court of Eastern Michigan.

13

Judiciary Proceedings

History of the District Court First Proceedings:
Petitioner pro se first proceedings were filed in June 2016, in the District
Court of Eastern Michigan against Credit Acceptance Corporation. Credit
Acceptance filed a motion to compel arbitration. District Court granted Credit
Acceptance motion to arbitration and dismissed Petitioner’s complaint without
Prejudice. Credit Acceptanced rescinded their right to arbitration and
Rajapakse filed a notice with the court informing of the creditor’s actions.
District Court denied Plaintiffs motion and denied her motion and notice.
Credit Acceptance never arbitrated the dispute. [Appendix BJ.

History of the District Court Second Proceedings:
Petitioner’s, Pro se filed her second case in September 2017 against Credit
Acceptance, it Board Members and management after was discovery during
the dismissal of Petitioner’s first case and the filing of her second case Credit
Acceptance was reporting a lower balance $10,334.34 to all three of the credit
reporting agencies and sending Rajapakse a higher balance $17,334.34 (both)
as the original loan balance for the same auto loan. Experian and Tran Union
removed and supressed Credit Acceptance from reporting after sufficient
documentation was provided,

but Equifax continued to allow Credit
14

i

Acceptance to report inaccurate payments and failed to post payments. In
January 2017 Credit Acceptance affirmed the debt as $10,334.34 and
Rajapakse had already paid $12,334.34 so Rajapakse cease making payments
to Credit Acceptance and Credit Acceptance cease any collection of debt
against Rajapakse. Rajapakse continue her suit against Credit Acceptance
for inaccurate information prior to Rajapakse’s last payment showing missed
some payments the balance of the warranty coverage $5,469.34 and not the
loan for the vehicle on Rajapakse’s Equifax Credit Report. In February 2018
one year after Rajapakse made her last payment Credit Acceptance
Corporation sent Rajapakse a default balance $5,649.34 for the warranty and
one (1) day later repossessed the vehicle. Petitioner immediately filed several
injunctive motions to the district court to have the vehicle returned due to
inaccuraties payment histories from the three payment histories obtained by
Credit Acceptance; district court denied her motions. A preliminary hearing
was held in which both parties were instructed by the Magistrate to present
evidence i.e., proof of payments for the ruling merits on the entitlement of the
vehicle. Petitioner presented Credit Acceptance two inconsistent payment
histories showing every payment made from February 2014 to January 2017
alone with proof of payment and the second one that did not show any credits
on the accout related to the warranty. Credit Acceptance provided a third
payment history and an affidavit from an Agent of Credit Acceptance stating
Rajapakse missed payments from February 2014 to October 2014 and the first
payment started in November 2014. Credit Acceptance told the District Court
15

Rajapakse drove the vehicle for six months without payment. The district
court ordered Credit Acceptance not to remove the vehicle until the court was
allowed to review the evidence; the order was oral and not stated into the
order. Credit Acceptance refused to provide Rajapakse location of the vehicle
within the 10 days so that she may allowed retain the vehicle with payment
i

or retain her personal items that were left in the vehicle at the time of the
repossession. Petitoner requested through the court seeking her personal
items which the court never addressed or order Credit Acceptance to provide
such location. Credit Acceptance relocated the vehicle to an undisclose auction
location for a schedule date of sale. The District Court Magistrate report and
recommendation stated since Credit Acceptance already had the vehicle, they
had entitlement and if Rajapakse should file for summary judgment and seek
damanges if there were any.

Petitioner filed twice and was denied by the

district court. Credit Acceptance later sold at an undisclosed date. A year
later, Credit Acceptance had the repo driver return parital personal items in
Rajapakse’s vehicle. Petitioner provided affidavits entered into the record of
the court from other Credit Acceptance Consumers with similar issues related
to their account i.e., miss applied payments, warranty coverage, hidden fees,
and wrongful repossessions. Credit Acceptance did not provide any additional
evidence to rebuttal.
Petitioner amended her complaint to include One Stop Auto Sales and Robert
Williams, owner for misrepresenting warranty coverage of the vehicle sold to
16

Rajapakse. Defendant Williams provided to the court via his attorney an
affidavit detailing Credit Acceptance marketing the warranty and gap
insurance as a condition in obtaining an auto loan approval,

how Credit

Acceptance not only market the warranties i.e., but acting as a creditor and
debt collector on the vehicle service agreement and gap insurance by handling
consumer’s claims, arbitrating disputes, and provided incentives to authorized
dealers who sold the services warranties to its customers as a condition of loan
approval.

Pre-damaged vehicles were selected by Credit Acceptance for

consumer financing without disclosing to the consumer the damages of the
financed vehicles. The district court opinion was Rajapakse made the
statement related to the warranty not Williams and Credit Acceptance had
immunity because there were no laws against auto lenders for consumers to
bringing suit against.

Opinion of the Sixth Circuit Court:
Petitioner returned to the Sixth Circuit as a Right to Appeal which the court
affirmed the District Court ruling stating Rajapakse failed to state a claim in
which relief could be sought.
Petitioner petitioned to en banc due on March 19,2021 which was filed to arrive
to the court under Rule 29 of the Court of Appeal but was denied due to the

17

court received it overnight via the United States Postal Service it but filing
the petiton untimely.

REASON FOR GRANTING CERTIORARI
A. Credit Acceptance was granted the same soveriegn Immunity as
the United States Government:
March 26,2021 the Sixth Circuit Appeallate Court upheld the District
Court of Eastern Michigan judgment that a private creditor, Credit Accptance
Corporation was granted immunity a creditor violates the 15 U.S.C§ 1681 of
the Fair Credit Reporting Act. Fair Billing Act, and the Magnuson-Moss Act
15 U.S.C §2300, §2301 The Sixth Circuit affirming the district court ruling
will have a major impact on consumer’s credit setting an auto loan contract
itself if enforceable even when the account is in error and set a presidence as
the only court in the United States who can authorize and grant immunity
when a creditor or furnisher non-compliance of laws enacted by Congress.
The affirmation of the Sixth Circuit allows other courts to decide who is
entitled as a consumer to protected by the laws enacted by Congress and who
is not. If the courts have personal issues with a person race, sexuality, or just
being pro se it will be up to their descretion to deny a consumer right of
protection by the court by granting immunity to creditor’s negligence and
intentional wrongdoing. The trust in consumer’s having the empowerment of

18

1

Congress enacted laws would be worthless because all other courts would be
obligated to enforce except this Circuit and the lower court jurisdiction.

B. 15 U.S.C§ 1681 of the Fair Credit Reporting Act and the
Comprehenive Consumer Credit Reporting Act 2016 established
by Congress Protects Consumer’s credit Accuracy and regulate
furnishers.
Two years prior to Petitioner filing her second complaint Congress enactd
the Comprehenive Consumer Credit Reporting Act of 2016 to empowe
consumers how to handle credit disputes under Sec. 106 requiring
Furnishers of credit information to maintain maximum accuratcy records
necessary to verify accurate disputes. Credit Acceptance had three (3)
payment histories entered into the record of the court which leaves not
dispute information was not accurate. District court began to explain the
accounting process that not even Credit Acceptance could explain.
Concluding the Sixth Circuit affirmed the district court to not enforced the
laws enacted by Congress instead dissect a creditor’s accounting even when
the creditor cannot do it themselves. The same Sixth Circuit who affirmed
the lower court judgment is the same court who opininon held in Watkins
v. Simmons & Clark, 618 F.2d 398, 399 the purpose of statutory recovery
is to “encourage lawsuits by individuals’ consumers as a means of enforcing
creditors compliance with the act.”

19

C. Sixth Circuit opinion opens the door for Discrimination to
Minorities and violation of the Fourth Amendment:
In review of Petitioner’s writ is a constitutional question whether a
constitional violation occurred where the vehicle seized was objectively
unreasonable. Three inconsistent payment histories on one original
loan are unreasonable and a constitutional violation, U.S. v. Place, 462
U.S. 696, 701 103 S. Ct. 2637, 77 L.Ed 2d 110. The Sixth Circuit
opinion leaves the door for creditors

inaccurate

accounts to have

property taken from when there is not entitlement. This entitlement by
the courts can affect a person with a good credit score to experience a
decrease in credit even when the consumer can show an accurate
payment record a conflict in a previous opinion by the court prohibiting
of unreasonable seizure to entend to property regardless of whether the
processor or has private interest in upholding the Fourth Amendment,
Soldal v. Cook County, 506 U.S. 56 62-63 113 S.Ct. 538 121 L.Ed 2d
450. An intentional discrimination in deliberate or reckless disregard
to a Plaintiffs rights like Rajapakse’s civil rights to punitive damages,
C.F. Rowlett v. Auheuser-Busch, Inc., 832 F.2d 194, 206
D. The Sixth Circuit opinion ruled on an issue never address in
the District Court or Appellate Court in affirming its decision.

20

District Court nor the Credit Acceptance never argued Plaintiff failed to
state a claim. Infact, Credit Acceptance again asked for motion to compel
to arbitrate which is a breach of their contract due to the vehicle being
repossessed. Petition asserted that in Credit Acceptance own contract it
states that default repossession is not to be arbitrated. This issue brings
to the attention what this court opinion regarding Pro se litigation’s cases
being dismissed by Rule 12 for failure to state a claim. The same Circuit
held that the court must treat all of the well-pleaded allegations of the
complaint as true, Saylor v. Parker Seal Co., 975 F.2d 252, 254 most
favorable to the Plaintiff, Scheuer v. Rhodes, 415 U.S. 232, 236 94 S.Ct.
1683 40 L.Ed 2d 90. A Complaint by a pro se is to be taken liberal and not
held by the same standard and counsel. The court must also consider in a
complaint in order to survive a motion to dismiss for failure to state a claim
under rule 12(b)(6) should be denied only if it appears “beyond doubt” that
the Plaintiff not not prove not set of facts in support of the claim that would
entitle the Plaintiff for relief, Bell Atlantic v. Twombly, 548 U.S. 903 127
S.Ct. 1955.

This was not the case and Credit Acceptance should not have

prevailed.

D.

Sixth Circuit affirming the Distict Court of a private

repossession turned the case into a federal action which
violates Rajapakse 4th Amendment:
21

The United States Constitution Fourth Amendment states “ All Persons
shall be secured by unreasonable search and seizure. This court held in
Blum v. Yaretsky, 457 U.S. 991, 1004, raising issues of the government
violating the fourth Amendment in a private case, two issues have to be
risen. 1) a sufficient transformation of a private repossession to a
government to a state action and it 2) has to be unreasonable. This court
further held that whether the right at issue was clearly establish at the
time of the defendant allege misconduct, Saucier v. Katz, 533 U.S. 194, 201.
The Doctrine of qualified Immunity Protects government officials “from
liability for civil damages inso far as their conduct does not violate clearly
established statutory or constitutional rights which a reason person would
have know, Middaugh v. City of Three Rivers, No. 15-1140, Sixth Circuit,
March 29,2017 (quoting Harlow v. Fitzgerald, 457 U.S. 800, 818; Hensley
v. Gassman, 693 F. 3d. 681, 687.

Conflicting opinions from the Sixth

Circuit in a previous ruling held that the circuit determined the federal
court authority holding the rights of a pro se litigant requires careful
protection where highly technical requirement are involved, especially
when enforcing those requirements might result in a loss of the opportunity
to prosecute or defend a lawsuite on the merits, Brown v. Matauszak, 415
F.EdAppx. 608,618 (quoting Garaux v. Pulley, 735F.2d 437,439 9th Circuit,
1984) the Sixth Circuit should be consistent with the rulings of the
Appellant courts regarding Pro se litigants. Petitioner being pro se have

22

the same consitutional rights in the Bill of Rights and the Constitution to
protect her property from a wrongful seizure from creditors negligence.
Despite the repeated ruling from the Supreme Court and the Appellate
Court of the United States, those representing themselves in court as
pro se have a hurdle that needs no more assistance from the courts.
Rajapakse was given an order to be appointed of counsel to represent
her in the court proceedings. As thousands of Pro se that would benefit
from appointment of counsel with less knowledge of court procedures,
not to mention lack of legal terminology should prevail when Plaintiff
has met the threshold requirements of the court.
Counsel for Credit Acceptance never acted as a “debt collector” for
the account. Prior to the lawsuit filed, Rajapakse had possession of the
vehicle until February 2018. Since the case was filed prior to the
possession of the vehicle, Credit Acceptance violated the 1692i(a)(2),
Credit Acceptance should have filed a suit in state of Tennessee court
seeking possession of the vehicle to enforce their interest in real
property in the state of Tennessee since the vehicle was located in
Tennessee and the contract were consummated in Tennessee. Credit
Acceptance violated the Fair Debt Collection Act by using the suit in
court over the fraudulent warranty and misapplied payments to
wrongfully repossess Rajapakse1 s property, §1692k.

23

This court opinion in Bracy u. Gramley, 520 U.S. 899 117 S.Ct. 1793
due process requires a fair trial before a judge without actual bias
against Plaintiff in an interest in the outcome of the case. Any claim of
a bias judge the Petitoner must show either actual baias or the
appearance of bias creating a conclusive presumption of actual bias,
U.S. v. Lowe, 106 F3d 1498,1504. (citing opinion from the Sixth Circuit)
that was presented into the appeallate record of the behavior of the
District Court. The action of the district court supports why Credit
Acceptance could have prevail with three different payment histories
on the account and the two-original balance on one original loan.

E.
Sixth Circuit enforced a Vehicle Service
Warranties are Qusai Contracts which cannot be
enforced.
As today more people are financing vehicles auto lenders are held under
Sec. Z regulation to furnish accurate information on a consumer’s credit. More
and more are adding vehicle service agreements (VSA) to cover the expensive
cost of repairs on associated with their vehicles. Rajapakse did the same in
protecting her vehicle repairs and when it was revealed the coverage did not
exist, Credit Acceptance should have removed the cost of the warranty in full and
adjusted her account. Chapter 4718 U.S.C §1001(2) fraud is defined as making
any materially false, fictitious, or fraudulent statement or representation.
Although Credit Acceptance testified, they hold no liability to the warranty,
24

Affidavit of Robert Williams, Managing Member of One Stop Auto testified
marketing and operation of the warranty, including claims originated from
Credit Acceptance. Magnuson-Moss Act§ 2300-§2301 states breach of
warranty is when a consumer does not receive conditions of the warranty,
terms and exclusions, coverage, how file a claim and when the warranty is void
nor the location of how to contact the coverage. Credit Acceptance applied a
“rebate” or pro rate to the account for the non-delivery of the warranty, but
under the Truth in Lending Act rebates only applies to the financing of new
vehicles. Rajapakse’s vehicle was used. Credit Acceptance had an obligation to
disclose to Rajapakse who was obligated to provide service on the warranty,

i

i

Streit v. Fireside Chrysler Plymouth, Inc, 697F.2d 193. The court erred by not
allowing Rajapakse the right to protect and defend her property.

F.
Sixth Circuit affirm the lower court discrediting §
1681 regulating Furnishes reporting information
on
Raiapakse’s Credit Report:

The lower court was presented with two inconsistent payment histories from
Credit Acceptance and Credit Acceptance submitted a third one resulting in
three inconsistent payment histories. The lower court remedy was to allow
Credit Acceptance to discredit the two previous one in order for the court to
make a ruling. The Sixth Circuit affirmed. Basically, the Sixth Circuit gave
total control to creditors who are found liable in presenting inaccurate
25

information furnished on consumer’s credit, allow a creditor to alter their
accounting records and submit it to the court with an affidavit discrediting
their own documents to make the current document as true and accurate.
Consumers rely on creditors to report accurate information on their credit to
increase their credit score and reflect proper payments with the company
payment histories. Today credit reports are used for those seeking
employment with many companies and more with federal, county, and state
government. Inaccurate information being reported on a consumer’s credit
causes denial of credit, high interest rates, and denial of employment to good
paying jobs. When a consumer has a dispute with a creditor over inaccurate
information or payments, consumers are not helpless in disputing these
dipute.^f 666 ( c) of the Fair Credit Reporting Act furnisher are to be prompt
and fair crediting of payments. Credit Acceptance took three years to even
adjust the account related to the warranty. The responsibility of information
related to the account to the consumer reporting agencies was Credit.
Acceptance, § 168ls2. Credit Acceptance by the Sixth Circuit affirmation does
not have to comply with the thirty-day requirement nor given any reason why
in a timely frame.

By devising a scheme to defraud through unlawfully

obtaining possession, U.S. v. Maze, 414 U.S. 395 94 S Ct. 645 38 L. Ed. .2d
603. The Sixth Circuit held in Bryant v. TRW, Inc., 689 F. .2d 72 "Negligent
of non-compliance with “any” requirement of the FCRA gives rise to liability
for “any” actual damages and reasonable attorney fees. FCRA 1681n states in

26

additional to liability for punitive damages. Credit Acceptance admitting the
credit report was intentional, Rajapakse was entitled to punitive damages for
such violation. This act and laws do not apply to Credit Acceptance since the
Sixth Circuit affirmed the lower court ruling granting this creditor immunity

H. Previous Opinions from the Appellate Courts Affidavits
and Evidence not supporting Credit Acceptance Deceptive
History behavior:
Affidavits obtained by social media

entered into the record from

consumers of Credit Acceptance were collected from Facebook, U.S Morales,
687 F .3d 697 702-02 and provided substantial evidence, Wilbanks v. Sec. of
Health and Human Services, 847 F .2d 301, 303 Credit Acceptance had a
pattern and practice for over ten years of conducting this type of business but
were never mentioned in the lower court judgment and never mentioned in the
Circuit Court and it never contradict Petitoner’s previous evidence. This court
held that facial plausibility when the Plaintiff Pleads factual content that
allows the court to draw the reasonable inference that the defendant is liable
for misconduct. Ashcroft v. Iqbal, U.S 129, S. Ct. 1955, 167 L . Ed . 2d 929.
Affidavits even from Williams of One Stop Auto Sale provided by his counsel
and

submitted by Rajapakse was discredited as her statement made.

supported the inaccurate payment history, the deceptive behavior and injuries
caused by Credit Acceptance. Substantial evidence supported a reason
conclusion, Richardson v. Perales, 402, 387, 401, 91 S. Ct. 1420, 28 L. Ed. .2d

27

842. Sixth Circuit opinion can make the statement by affidavit from one party
be the statement of another party. It also gives presence that even if the
affidavits supports the Plaintiff in a case, the contract is still enforcable
because it was signed and breached.

I. The Sixth Circuit denied Petitioner right to Summary
Judgement against Credit Acceptance for violations as a
matter of law.

Summary judgment as a matter of law under Fed. R. Civ. P 56 c in considering
a motion for summary judgment, the district court must construe the evidence
and draw all reasonable inference in favor of the non-moving party,
Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 587 106 S.
Ct. 1348, 89 L Ed . 2d 538. This court opinion in Liberty Lobby v. Anderson,
477 U.S. 242 106 S.Ct. 2505 91 L.Ed 2d 202 (quoting First National Bank
of Arizona v. Cities Serv. Co., 391 U.S. 253 88 S.Ct. 1575, 20 L.Ed 2d 569.
“evidence in a summary judgment will not lie if the dispute about a paterial
facs is “genuine” that is if the evidence is such a reasonble jury could return
a verdict for the moving party.” Rajapakse had a right as a matter of law to
i

relief for invasion and to use the court for any available remedy to make good
the wrong done, Nixon v. Condon, 286, U.S. 73 52 S Ct. 484 76 L. Ed 984.
Evidence the warranty was fraudulent supported the facts and laws Credit
Acceptance has provided services with no intentioning of honoring. The
intentional denial of Rajapakse’s right to summary judgment at a matter of
28

law, was the government intentional deprivation of Rajapakse of life, liberty
and of property survives due process scrutiny, it must still implement in a fair
manner, Pailko u. Connecticut, 302, TJ.S. 319, 325326 [58 S Ct. 149, 152, 82 L.
Ed 288]. Rajapakse stated a claim in court under$ 1983 against the courts
under the United States Constitution of the Due Process Clause, which is still
protected, Morgan u. Church’s Fried Chicken, 829 F. .2d 10,12.

CONCLUSION

A Writ of Certiorari is essential to protect Plaintiffs right as pro se to
seeking relief which the laws of this Court and the state does not support the
judgment of the Sixth Circuit. Without interim relief, Petition for certiorari
and correct the Six Circuit extraordinary decision to uphold a law identical to
one this court has already upheld and protect for representing themselves and
consumer laws in this court. This Court must allow Writ of Certiorari to
ensure Public Trust that those who come before the court Pro Se without
counsel to ensure the protect of the Fourth Amendment and 14th Amendment
Rights will be protect and well guarded.
i

The Petition for Writ of Certiorari should be Granted.
Date June 22,2021

29

■

Samantha Rajapakse
Pro Se/ Petitioner
3221 Westonia Drive
Chattanooga, TN 37412
423-551-1854
Samantharajapakse@ymail.com

30

